No. [
IN THE
SUPREME COURT OF THE UNITED STATES
Kevin Craig- Petitioner

vs.
O’Bell T. Winn-Respondent

I, Kevin A. Craig, do swear or declare that on this date, July l(o , 2021, as required by
Supreme Court Rule 29,1 have served the enclosed MOTION. FOR LEAVE TO PROCEED IN
FORMA PA UPERIS and PETITION FOR A WRIT OF CERTIORARI on that party’s counsel, by
placing the foregoing in an envelope containing the above documents, and then placing those
documents in the hands of prison officials to be assigned the proper postage and delivered to a
third-party commercial carrier for delivery to the Clerk of this Court.
The name of the respondent's attorney served is as follows:
Michigan Department of Attorney General
Corrections Division
P.O. Box 30217
Lansing, Michigan 48909

I declare under penalty of peijury that the foregoing is true and correct.

Executed on:

7-iu

_, 2021

Signal

